IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020

No.
ANTONIO NAVARRO,
Petitioner,
- Vs -
STATE OF CALIFORNIA,
Respondent.
PROOF OF SERVICE
STATE OF CALIFORNIA. )
) ss.

COUNTY OF SAN DIEGO )
JOHN LANAHAN, being first duly sworn, deposes and says:
That he is a member of the Bar of the Supreme Court of the United States;

That on 23 March, 2021, the petition for writ of certiorari to the Court of Appeals for
the California Court of Appeal, Second Appellate District, Division Four and the motion for
leave to proceed in forma pauperis in the above-entitled case was deposited in a United
States Post Office mailbox located in San Diego, California, with first class postage prepaid,
properly addressed to the Clerk of the Supreme Court of the United States and within the
time allowed for filing said petition;

That an additional copy of the petition, motion for leave to proceed in forma pauperis,
and the affidavit of the proof of mailing of the petition was served on counsel for respondent:

Attorney General
State of California

docketingLAawt@doj.ca.gov

Dated at San Diego, California, this 23rd day of we

JOHN LANAHAN, Affiant
